      ADVISORY REPORT

     COSTS CLAIMED BY THE
       STATE OF ARIZONA,
   DEPARTMENT OF GAME AND
    FISH, UNDER FEDERAL AID
   GRANTS FROM THE U.S. FISH
  AND WILDLIFE SERVICE FROM
      JULY 1, 1998 THROUGH
           JUNE 30, 2000




JANUARY 2003   Report No. 2003-E-0014
                                                                          X-GR-FWS-0032-2003

                United States Department of the Interior
                          OFFICE OF INSPECTOR GENERAL
                                      Washington, D.C. 20240




                                                                                January 23, 2003

                                ADVISORY REPORT
Memorandum

To:        Director
           U. S. Fish and Wildlife Service

From:      Roger La Rouche
           Assistant Inspector General for Audits

Subject:   Final Advisory Report on Costs Claimed by the State of Arizona, Department of
           Game and Fish, Under Federal Aid Grants from the U.S. Fish and Wildlife Service
           from July 1, 1998 through June 30, 2000 (No. 2003-E-0014)

Introduction
        This report presents the results of our performance of procedures to review of another
audit agency’s work related to costs claimed by the State of Arizona Department of Game and
Fish (Department) under Federal Aid grants from the U.S. Fish and Wildlife Service (FWS) for
the period July 1, 1998 through June 30, 2000.

Background and Scope

        The Federal Aid in Wildlife Restoration Act, as amended (16 U.S.C. 669) and the Federal
Aid in Sport Fish Restoration Act, as amended (16 U.S.C. 777), (the Acts), authorize FWS to
provide Federal assistance grants to states to enhance their sport fish and wildlife programs. The
Acts provide for FWS to reimburse the states up to 75 percent of all eligible costs incurred under
the grants. Additionally, the Acts specify that state hunting and fishing license revenues cannot
to be used for any purpose other than the administration of the state’s fish and game agencies. In
addition, FWS also provides grants to the states under the Clean Vessel Act and the Endangered
Species Act.

        In December 2000, another audit agency began an audit of Federal Aid grants awarded to
the Department for fiscal years 1999 and 2000. The scope of the work to be performed by the
audit agency, as stated in its announcement letter to the Department, was to evaluate (1) the
adequacy of the Department’s purchasing system as it pertains to the FWS Federal Aid grant
agreements; (2) the adequacy and reliability of the Department’s license fees collection and
disbursement system; (3) the adequacy of the Department’s accounting system as it relates to the
accumulation and reporting of costs charged to grants; and (4) the accuracy and eligibility of the
direct costs claimed by the Department under the Federal Aid grant agreements. The audit was
also to include an analysis of other issues or systems considered to be sensitive and/or significant
to FWS. The audit work covered claims totaling $29.5 million on FWS grants that were open
during the Department’s fiscal years ending June 30, 1999 and 2000 (see Appendix 1). The
audit agency’s files contained a copy of an undated draft report. However, the audit agency’s
agreement with FWS expired before a draft report was issued to the State of Arizona.

        From 1996 through September 2001, the audit agency conducted audits of Federal Aid
grants under a reimbursable agreement with the FWS. The FWS did not renew or extend the
agreement when it expired on September 30, 2001. At the time of expiration, final reports had
not been issued on several uncompleted audits that were in various stages of the audit and
reporting processes. The audit agency indicated in a September 28, 2001 memorandum in the
working paper files that the Arizona audit assignment was incomplete because its supervisors
had not reviewed the working papers to ensure that (1) sufficient, competent and relevant
evidence was obtained, (2) evidential matter contained in the working papers adequately
supported the audit findings in the report, and (3) sound auditing techniques and judgment were
used throughout the audit.

        On September 20, 2001, FWS and the Office of Inspector General (OIG) entered into an
Intra-Departmental Agreement under which FWS requested OIG to (1) review the audit work
performed by the audit agency including its working papers, summaries and draft reports for
these audits and (2) issue reports on the findings that were supported by the working papers.
Accordingly, our review was limited to performing the procedures set forth in the Agreement
and our conclusions presented in the report are limited to the findings substantiated by the
working papers. We did not perform any additional audit work of the Department’s records, and
the limited work performed under these procedures does not constitute an audit by the OIG in
accordance with Generally Accepted Government Auditing Standards.

       Significant findings impacting Arizona’s administration of the Federal Aid program are
presented in the body of the report and other management issues are presented in Appendix 2.

                                     Results of Review
       The results of our review of the working papers disclosed the following:

   •   The eligibility for reimbursement of salary costs of $60,426 (Federal share - $45,319) for
       two administrative secretaries was questioned.

   •   The Department used license fee revenues of $130,395 for ineligible activities, including
       law enforcement assistance to other State agencies ($34,644), expansion and remodeling
       of facilities that housed non-fish and game personnel ($65,722), and supervision costs
       related to non-fish and game activities ($30,029).




                                                 2
   •   The Department’s asset management system contained deficiencies related to compliance
       with State policies and procedures, valuation of donated land, accounting for land
       acquired through patents, accuracy of fixed asset reports, and written policies for the sale
       of real property.

   •   The Department was not adequately accounting for revenues collected from students in
       the Hunter Education Program.

A. Questioned Costs

        The Department’s Education and Information Branch employed two secretaries who
provided support to all Branch personnel. The funding source for these two positions was
identified as Federal Aid Grants W-93-S and FW-22-O. However, these employees support staff
performing duties related to the Watercraft Registration and Safety, Off Highway Vehicle, and
Heritage programs as well as Fish and Game programs. Office of Management and Budget
(OMB) Circular A-87, Attachment A, paragraph C. (3)(a) specifies that, “A cost is allocable to a
particular cost objective if the goods or services involved are chargeable or assignable to such
cost objective in accordance with the relative benefits received.” Therefore, charging the entire
costs for these two employees to these Federal Aid grants is not appropriate. The working
papers identified questioned costs of $60,426 for salaries and fringe benefits (Federal share
$45,319) charged by the two secretaries, as follows:

                  Fiscal        Project        Questioned      Federal Share of
                  Year          Number           Costs         Questioned Costs
                  2000      FW-22-O-4            $22,439          $16,829
                  2000      W-93-S-29             16,068           12,051
                  1999      W-93-S-28             21,919           16,439
                    Total                        $60,426          $45,319

Recommendation

       We recommend that the FWS resolve the questioned salary costs related to the two
administrative secretaries.

Department and U.S. Fish and Wildlife Service Responses

       Department officials stated that they concurred with the finding and deducted the Federal
share of the questioned costs ($45,319) from a reimbursement request on November 15, 2002.

       The FWS did not provide a response to this recommendation.




                                                3
Office of Inspector General Comments

      The corrective actions taken by the Department are sufficient for FWS to consider the
recommendation resolved and implemented.

B. Use of Hunting and Fishing License Revenues

        The Code of Federal Regulations (50 CFR 80.4) states, “Revenues from license fees paid
by hunters and fisherman shall not be diverted to purposes other than the administration of the
State fish and wildlife agency.” According to Part 80.4 (b), the administration of a State fish and
wildlife agency “includes only those functions required to manage the fish and wildlife oriented
resources of the State…” The working papers showed, however, that the Department used
license fee revenues of $130,395 for ineligible activities, including law enforcement assistance to
other State agencies ($34,644), expansion and remodeling of facilities that housed non-fish and
game personnel ($65,722), and supervision of non-fish and game activities ($30,029).

       1. Law Enforcement. The working papers indicated that license revenues of $34,644
were used to fund the cost of assistance provided by Department law enforcement employees to
other State agencies. This assistance was charged to PCA codes 07157, 07176, 07192, 07210,
07229, and 07246 for each region.

        The Department provided documentation at the closeout conference indicating that its
game wardens are required to assist other state agencies when the need arises. While we agree
that state policy allows for law enforcement assistance to other agencies, Federal requirements
for the use of restricted license revenues do not. The Code (50 CFR 80.4) requires that license
fees be spent only in support of the administration of the state fish and wildlife agency.

        2. Regional Office Expansion/Remodeling. The Code (50 CFR 80.15 (c)) states,
“Projects or facilities designed to include purposes other than those eligible under the pertinent
Act shall provide for the allocation of costs among the various purposes. The method used to
allocate costs shall produce an equitable distribution of costs based on the relative uses or
benefits provided.” The draft report questioned the use of license revenues of $65,722 for the
expansion/remodeling of the portions of the Mesa and Tucson Regional Offices that house the
State’s Watercraft Registration and Safety Program. Since this program is not related to the
management of the fish and wildlife-oriented resources of the State, it should not be supported
with license fee revenues.

        Mesa Regional Office – The working papers indicated that the Department’s records
showed that license fee revenues of $251,343 were used for the expansion of the Mesa Regional
Office in fiscal year 2000, and that 83 percent of the occupancy of the Office related to the fish
and wildlife program and 17 percent of the occupancy related to the Watercraft Program.
Consequently, $42,728 ($251,343 x 17 percent) was identified as a diversion of license revenues.

       The Department provided documentation at the closeout conference indicating that the
space occupied by the Watercraft Program should have been 5.28 percent instead of 17 percent


                                                 4
as identified in the working papers. However, we were unable to verify the Department’s
calculation or reconcile it with the information in the working papers because (1) the
Department’s computation was performed on August 8, 2002, not at the time of the audit and
(2) the areas used by the Department to calculate the occupancy percentage were based on the
names of the individuals who occupied the space while the floor plan used by the auditors
identifies which program occupies the space. FWS should work with the Department to
determine an appropriate cost adjustment to the grant, considering the past, current, and
anticipated future use of the new space.

        Tucson Regional Office – The working papers indicated that the office was remodeled in
fiscal year 2000 at a cost of $277,036, which was funded entirely with license revenues.
Documents provided by the Department showed that 8.3 percent of the remodeled space was for
the Watercraft Program. Accordingly, $22,994 ($277,036 x 8.3 percent) was identified as a
diversion of license revenues.

        3. Supervision. The working papers identified two individuals (the Wildlife
Management Branch Supervisor Education Branch Chief and the Finance and Accounting
Branch Fiscal Unit Supervisor Accounts/Fiscal Manager) whose salaries were funded primarily
by the Fish and Game Fund although the employees they supervised also performed work related
to the Watercraft Registration and Safety Program (which is funded by the Watercraft Fund).
The working papers showed that the amount of license revenues used for ineligible purposes was
computed by determining the percentage of effort associated with Watercraft Program activities
each year and applying these percentages to the supervisors’ salaries, as follows:


       Wildlife Management Branch Supervisor Education Branch Chief
          Fiscal Year         Amount          Water Craft Percentage          Ineligible
              1999             $59,414                  22%                     $13,071
              2000              53,199                  11%                       5,852
                              $112,613                                          $18,923


                  Fiscal Unit Supervisor Accounts/Fiscal Manager
          Fiscal Year         Amount          Water Craft Percentage          Ineligible
              1999             $34,008                  17%                      $5,781
              2000              38,036                  14%                       5,325
                               $72,044                                          $11,106
                                                       TOTAL                    $30,029




                                               5
Recommendation

       We recommend that the FWS resolve the $130,395 of license revenues used for ineligible
purposes.

Department and U.S. Fish and Wildlife Service Responses

        Department officials stated that they concur with Finding B.1 (Law Enforcement);
however, they added that the Department receives reciprocal services from other Arizona State
Public Safety agencies. The Department attached a letter from the Governor of the State of
Arizona that stated, “I see no positive public purpose served in changing the way the Department
or other law enforcement jurisdictions in Arizona direct law enforcement activities by their
officers, or in trying to rectify the matter by seeking other funding avenues.” The Governor
further stated that, “As such, I support the Department’s continued assistance of other law
enforcement jurisdictions within the state. Further, I support your efforts to gain the U.S. Fish
and Wildlife Service’s acceptance of the expectations of the State Legislature and my office in
the resolution of this audit finding, without reducing the Department’s current law enforcement
authority, and without the need for new funding sources.”

        Regarding Finding B.2 (Regional Office Expansion/Remodeling), Department officials
stated that the 17 percent occupancy of the Mesa Regional Office by the Watercraft Program is
incorrect. The officials further stated that they were not provided with the opportunity to
respond to this issue until several years after the original information had been collected by the
other audit agency. The officials added that the space utilization by various program areas has
not changed since the original expansion. The officials further stated that they stand by the
5.28 percent utilization by the Watercraft Program.

      Department officials concurred with Finding B.3 (Supervision) and provided
documentation that shows that $30,029 was transferred to the Game and Fish Licensing Fund on
November 14, 2002.

       The FWS did not provide a response to this recommendation.

Office of Inspector General Comments

       The corrective actions taken by the Department are sufficient for FWS to consider
Finding B.3 resolved and implemented. However, the two remaining issues are unresolved.

        Regarding Finding B.1, despite the benefits of reciprocal program with other law
enforcement agencies, the use of license revenues for non-fish and wildlife activities is not
allowable under the Code of Federal Regulations (50 CFR 80.4). Furthermore, the response did
not include specific information regarding the nature or value of the reciprocal services which
are necessary to determine whether the services help the Department’s fish and wildlife program.

      Regarding Finding B.2, Department officials stated that they stand by their claim that the
Watercraft Program only occupied 5.28 percent of the new space instead of 17 percent that was


                                                 6
supported by the working papers. As stated earlier, we were not able to verify the information
provided by the Department at the exit conference. The Department’s response did not address
the portion of the finding related to the remodeling of the Tucson Office. FWS should obtain
clarifying information and make a final determination regarding the use of license revenue for
law enforcement ($34,644), the office expansion ($42,728), and office remodeling ($22,994).

C. Asset Management System

        The working papers identified deficiencies in the Department’s asset management system
related to (1) compliance with State policies and procedures, (2) valuation of donated land,
(3) accounting for land patents, (4) accuracy of land records, and (5) written policies for the sale
of real property.

        Compliance with State Policies and Procedures. The Code of Federal Regulations
(43 CFR 12.72(b)) requires the State to use, manage, and dispose of equipment in accordance
with State laws and procedures. The working papers disclosed that the Department’s fixed asset
policies and procedures differed from those of the State in the following areas:

      The State requires that the funding source and date of acquisition/disposition of an asset
       be recorded in the agency’s fixed asset listing. The Department’s policies and procedures
       do not include this requirement.

      The State requires that a physical inventory of assets be taken between April 30 and June
       30 and that a reconciliation of additions and deletions between the time of the inventory
       and June 30 be performed. The Department’s policies and procedures do not include the
       reconciliation requirement.

      The State requires agencies to perform periodic comparisons of its fixed assets to the
       fixed asset listing and states that the comparison should not be assigned to personnel who
       are responsible for stewardship of those assets. The Department allows the steward
       responsible for the asset to perform the comparison.

       Valuation of Donated Land. Donated land is valued at $0 in the Department’s property
records. The State’s Accounting Manual requires donated assets to be recorded at fair market
value at the date of acquisition.

        Accounting for Land Patents. The State’s Fixed Asset Cost Report did not include all
parcels of land acquired via patent from the Federal Government, as required by the State of
Arizona Accounting Manual. A patent requires the land to be used for a specific purpose, and
provides that the land reverts to the Federal Government if the use of the land changes. The
working papers identified five parcels that were not included in the Report.

       Land Records. The working papers identified inaccurate or questionable information in
the Department’s Asset Management System land records for property purchased with Federal
Aid funds. This included (1) one parcel that was incorrectly identified as being purchased with
Federal Aid funds, (2) two parcels where documentation was not available to show that the land


                                                 7
was purchased with Federal Aid funds, (3) two parcels where the accuracy of the reported land
value was questionable, and (4) one parcel that may have reverted to Federal ownership and is
no longer owned by the Department.

       Policies and Procedures. While the Department’s practices related to the sale of real
property appeared to be adequate, the Department does not have written policies and procedures
for property sales in its Operating Manual.

Recommendation

       We recommend that the FWS ensure that the Department corrects the deficiencies in its
asset management system.

Department and U.S. Fish and Wildlife Service Responses

         Department officials stated that the Department Operating Manual Policy E2.10 (Fixed
Assets-Personal Inventory) has been modified to require the Finance and Accounting Branch to
maintain a fixed asset listing on the internal accounting system. The officials further stated that
the listing will include the property identification number, description of the asset, method of
acquisition, funding source, date of acquisition/disposal, purchase document number, and cost
for all Department fixed assets. In addition, the Manual has been modified to require a physical
inventory no earlier than April 30, and completed no later than June 30, of the same year.

        Department officials stated that donated lands valued at $0 were donated between 20 and
40 years ago when determining the fair market value was not required. The officials stated that,
“To go back and determine the fair market value at the date of acquisition would require
significant research by an appraiser and may be difficult to determine.”

        Department officials stated that three parcels were incorrectly identified as being
purchased with Federal Aid funds and the records were adjusted in fiscal year 2001. The
officials also stated that the Department stands by the dollar amounts indicated on the property
values and the property identified as possibly not being owned by the Department was added to
the Fixed Asset Database per the State Auditor’s General staff recommendation. Finally, the
officials stated that the Manual was modified to include disposition of money resulting from the
sale or disposal of capitalized assets.

       The FWS did not provide a response to this finding.

Office of Inspector General Comments

      The response from the Department was adequate for FWS to consider the
recommendation resolved and implemented.




                                                 8
D. Program Income

       The Code of Federal Regulations (43 CFR 12.65 (b)) states:

           Definition of program income. Program income means gross income
           received by the grantee or subgrantee directly generated by a
           grant-supported activity, or earned only as a result of the grant agreement
           during the grant period. “During the grant period” is the time between the
           effective date of the award and the ending date of the award reflected in
           the final financial report.

         The Department allows instructors to collect fees of up to $7 from each student in its
Hunter Education Program classes that are to be used for costs that are not reimbursed by the
Department. The Code (43 CFR 12.65 (g)(1)) states, “Ordinarily program income shall be
deducted from total allowable costs to determine the net allowable costs.” However, the
Department did not require its instructors to account for the receipt or expenditure of these fees.
Therefore, it could not be determined whether the fees collected were used for the Hunter
Education program. The Department should require Hunter Education instructors to account for
all collected fees and related expenditures associated with the Hunter Education program to
ensure compliance with the program income regulations.

Recommendation

       We recommend that the FWS ensure that the Department accounts for student fees in
accordance with the regulations.

Department and U.S. Fish and Wildlife Responses

                Department officials stated that while they concur with the description of the
issue raised, they do not agree with the recommendation. The officials stated that Arizona, like
many other states, allows the volunteer instructors to collect a voluntary supplemental fee to
enhance the Hunter Education class. The officials added that these fees have been historically
established in agreement with the Region 2 Hunter Education staff and FWS has never indicated
that they should account for these monies. The Department added that requiring instructors too
formally account for the minimal voluntary fees, as formal income, could potentially move their
status from volunteer to contractor, which would cause even greater concern. The Department
concluded that the current process has worked “for well over 50 years and instructor teams
provide more than adequate checks and balances over tracking and use of voluntary fees.”

       The FWS did not respond to this finding.

Office of Inspector General Comments

       The response did not provide sufficient information to consider the recommendation
resolved. Although the Department’s response stated that there were adequate checks and
balances in place over the tracking and use training fees, the response did not include a


                                                 9
description of those procedures. Furthermore, as noted in the report, the auditors could not
determine how much was collected and what the money was used for. Therefore, we request
that the FWS address this issue as part of the corrective action plan.

        In accordance with the Departmental Manual (360 DM 5.3), please provide us with your
written comments by April 25, 2003 regarding the questioned costs and the other issues
discussed in this report. If you have any questions regarding this report, please contact Mr. Gary
Dail, Federal Assistance Audit Coordinator, at (703) 487-8011.

        This advisory report is intended solely for the use of grant officials of the U.S. Fish and
Wildlife Service, and is not intended for, and should not be used by anyone who is not cognizant
of the procedures that were applied and who agreed to the sufficiency of those procedures.

cc: Regional Director, Region 2
     U.S. Fish and Wildlife Service




                                                10
                                                                                               APPENDIX 1
                                                                                                 Page 1 of 2


                    ARIZONA DEPARTMENT OF GAME AND FISH
                SCHEDULE OF GRANT COSTS AND QUESTIONED COSTS
                             FOR FISCAL YEAR 19991


                    GRANT                    GRANT             AMOUNT           QUESTIONED
                AGREEMENT                    BUDGET            CLAIMED            COSTS2
            FW-100-P6:
              F-7-M-41                       $2,131,673          $2,150,506
              F-14-R-33                         361,600             354,457
              F-20-E-13                         243,800             214,939
              F-21-TG-10                          4,000               1,952
              F-22-M-7                        1,534,243           1,473,667
              F-23-R-5                           20,000              20,000
              FW-11-TG-31-DJ                  1,015,625           1,004,463
              FW-15-58-DJ                       246,300             227,876
              FW-20-D-24-DJ                     951,428             817,501
              FW-21-D-3-DJ                      404,100             269,400
              FW-22-O-3-DJ                       67,400              65,210
              W-53-M-49                       1,804,300           1,984,381
              W-78-R-43                         974,501             982,984
              W-85-M-39                         451,640             478,698
              W-93-S-28                         307,100             335,280               $16,439
              W-95-M-15                         112,000             111,406
              W-98-S-3                          456,900             636,012
              FW-11-TG-31-PR                  1,015,625             883,993
              FW-15-58-PR                       246,300             202,224
              FW-20-D-24-PR                     997,139             997,138
              FW-21-D-3-PR                      269,400             269,400
              FW-22-O-3-PR                       67,400              59,679
            F-19-D-14                             764,360           523,464
            Totals for FY 1999                $14,446,834       $14,064,631               $16,439


1
  The grant budget and amount claimed in this schedule are based on an uncompleted worksheet generated by the
other audit agency and other documents in the working papers. We have not verified the accuracy or completeness
of this information.
2
  Federal share


                                                    11
                                                        APPENDIX 1
                                                          Page 2 of 2


       ARIZONA DEPARTMENT OF GAME AND FISH
   SCHEDULE OF GRANT COSTS AND QUESTIONED COSTS
                FOR FISCAL YEAR 2000


      GRANT          GRANT         AMOUNT        QUESTIONED
    AGREEMENT        BUDGET        CLAIMED         COSTS
FW-100-P7:
  F-7-M-42            $2,001,100    $1,988,750
  F-14-R-34              489,100       452,376
  F-20-E-14              266,166       206,582
  F-21-TG-11               4,000         2,634
  F-22-M-8             1,802,052     1,847,649
  F-23-R-6                20,000        20,000
  FW-11-TG-32-DJ         889,342       978,807
  FW-15-59-DJ            232,455       232,568
  FW-20-D-25-DJ          755,787       817,831
  FW-21-D-4-DJ          211, 575       201,184
  FW-22-O-4-DJ            66,155        75,824
  W-53-M-50            1,492,622     1,880,781
  W-78-R-44              897,963       929,906
  W-85-M-40              441,237       293,073
  W-93-S-29              288,827       324,317       $12,051
  W-95-M-16              110,775       132,970
  W-98-S-4               527,717       721,787
  FW-11-TG-32-PR         889,342       846,759
  FW-15-59-PR            268,215       204,424
  FW-20-D-25-PR        1,060,323     1,060,323
  FW-21-D-4-PR           211,575       201,184
  FW-22-O-4-PR            66,155        68,379        16,829
F-19-D-15              1,969,189     1,985,019
Totals for FY 2000   $14,961,672   $15,473,128       $28,880
     Grand Totals    $29,408,506   $29,537,759       $45,319




                          12
                                                                                APPENDIX 2

                                MANAGEMENT ISSUES

        The working papers indicated that the Department’s accounting system and related
internal controls in effect during fiscal years 1999 and 2000 were generally adequate for the
accumulation and reporting of costs under Federal Aid grants, and that the Department’s other
systems for labor, license certification, license fee collection and disbursement, billing and
drawdowns, indirect costs, and purchasing, and its assent legislation were generally adequate for
Federal Aid participation. However, the working papers identified several management issues
that the Arizona Department of Game and Fish and the Fish and Wildlife Service need to
address, as follows:

A. Accounting System

        The working papers indicated that the Department’s accounting system and related
internal controls are adequate for the accumulation, reconciliation, and reporting of costs on
Federal Aid grants. However, improvements in implementing the system are needed, as follows:

   •   The State Information Services Division (ISD, which operates the State’s computer
       system) does not have a formal plan for processing critical jobs in the event of a disaster
       (this issue was identified by the Arizona State Auditor as part of the A-133 Single Audit
       for FY 1999). The Department needs to prepare a formal plan for processing critical jobs
       in the event of a major hardware, software, or telecommunications failure until such time
       as ISD implements a Statewide plan.

   •   The Department does not have internal controls in place to ensure that a proper budget
       control indicator is entered into the Arizona Financial Information System (AFIS) when
       the budget is established. A budget control indicator should be loaded at budget setup to
       block requisitions when sufficient funds are not available.

   •   Although the current process for monitoring budgets was considered adequate, the
       Department does not have written policies and procedures for this process.

   •   Department employees generally charged costs associated with general meetings and
       training that benefit the organization as a whole to specific Federal Aid grant agreements.
       (The working papers indicated that the amount of ineligible costs associated with this
       practice was considered immaterial.) However, in accordance with OMB Circular A-87,
       these costs should be charged to the Department’s indirect cost pool and recovered
       through its approved indirect cost rates.




                                             13
   •   The Department does not have written policies and procedures for labor adjusting entries
       requiring the preparation of journal entries, and the current practices lack adequate
       internal controls. Specifically, adjustments of labor costs from one program to another
       do not require the concurrence of the receiving program, program costs may be
       transferred to other programs administered by the same manager, and adequate
       documentation is not always retained to explain why an adjustment is made. In addition,
       there is no established level of authority for approving labor adjusting entries.

   •   The Department’s accounting system is not capable of generating a report identifying
       recorded labor adjusting entries. This results in the potential loss of an audit trail should
       the journal entry forms be lost.

B. Advance Payments to Sub-Recipients

        The Department had two sub-recipient projects in fiscal years 1999 and 2000, both with
the U.S. Forest Service (USFS) under Grant F-19-D-15. The Department’s practice is to provide
funding to sub-recipients at the time the sub-recipient agreement is signed and prior to
expenditures being incurred by the sub-recipient. The Department entered into an agreement
with the USFS for the Willow Springs Project on June 5, 2000, for $53,700 and transferred this
amount to the project on June 20, 2000. The Department entered into an agreement with the
project for the Bartlett Lake project on June 19, 2000, for $206,275, which was transferred to the
project on July 6, 2000. However, as of February 21, 2001, no costs had been incurred on the
Willow Springs project and only salary costs had been incurred on the Bartlett project.

        The Code of Federal Regulations (43 CFR 12.61 (c)) contains the following provision on
advanced payments: “Grantees and sub grantees shall be paid in advance, provided they
maintain or demonstrate the willingness and ability to maintain procedures to minimize the time
elapsing between the transfer of funds and their disbursement by the grantee or sub grantee.” In
these two cases, the sub-recipient received full funding approximately eight months prior to the
audit agency’s review but there had been little or no work on the projects at that time.
Unwarranted advanced payments results in lost interest to the Federal Government.

C. Performance Reports

       The regulations (43 CFR 12.80 (c)) state that percentage-of-completion data in
contracting performance reports “…are relied on heavily by Federal agencies to monitor
progress under grants and sub-grants.” Section (d) of this regulation requires the grantee to
inform the Federal agency as soon as problems, delays, or adverse conditions become known.
Also, Part 522.10.8 (A) of the Federal Aid Manual states that the performance report must
contain the following information: “A description of the progress made through the end of the
grant agreement period toward accomplishment of the stated objective for the project. Explain
any deviations, which may impact on accomplishment of the stated objective.” The working
papers indicated that the Department provided inaccurate or incomplete information to FWS in
performance reports for two grants, as follows:


                                              14
   •   The fiscal year 2000 performance report for Grant F-19-D-15 indicated that all three
       projects had been completed although, as discussed in “Advance Payments to Sub-
       Recipients,” work had not begun on two of the projects (Willow Springs and Bartlett
       Lake).

   •   The performance report for Grant FW-100-P-6 (Projects FW-21-D-3 for fiscal year 1999
       and FW-21-D-4 for fiscal year 2000) indicated that a warehouse and boat storage area
       were added to the Mesa Regional Office site, even though the structures had not been
       completed.

D. Labor Reporting System

        The Department’s labor reporting system was considered adequate for the accumulation
and reporting of costs associated with FWS grant agreements. However, the Department’s
timekeeping procedures did not require employees to record time charges to Time and Travel
Reports or diaries on a daily basis or to complete timesheets in ink. In addition, the procedures
did not include instructions on how to make corrections to timesheets.

E. License Fees Collection and Disbursement System

        The working papers concluded that the Department’s license revenue collection and
disbursement system was adequate to ensure that license revenues were collected timely,
recorded in the proper restricted funds, and used for authorized purposes. However, although the
Customer Service Unit’s practices in handling license revenues were adequate, the Sales
Accounting Manual and desk procedures used by the Unit need to be updated to reflect these
practices.




                                             15
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone B Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240
              Phone:         24-Hour Toll Free              800-424-5081
                             Washington Metro Area          202-208-5300
                             Hearing Impaired (TTY)         202-208-2420
                             Fax                            202-208-6081
                             Caribbean Region               340-774-8300
                             Northern Pacific Region        671-647-6051
              Internet:      www.oig.doi.gov/hotline_form.html




                            U.S. Department of the Interior
                              Office of Inspector General
                                  1849 C Street, NW
                                Washington, DC 20240
                                        www.doi.gov
                                       www.oig.doi.gov
